L

€f)

8109

No.

Supreme Court, U.S.
FILED

MAY 1 8 2021
OFFICE OF THE CLERK

IN THE
i

SUPREME COURT OF THE UNITED STATES

PAMELA ROTH ATTNY ON BEHALF OF.,
— PETITIONER
ROY TAYLOR, PRO'SE
(Your Name)
i
VS.

CYNTHIA BRANN ET AL

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

NEW YORK STATE COURT OF APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ROY TAYLOR B/C 3491804923 QUAD 12UPPER 18
(Your Name)
AMKC RIKERS ISLAND 1818 HAZEN STREET
EAST ELMHURST, N.Y. 11370
(Address)
EAST ELMHURST, N.Y. 11370
(City, State, Zip Code)

(Phone Number)

ia.
QUESTION(S) PRESENTED
WHETHER NEW YORK STATE COURTS "ERRORED" NOT ADDRESSING THE MERITS OF:
1.WHETHER THE NEW YORK COUNTY SUPREME COURT ERRED EXONERATING BAIL
($125,000) WHILE AT LIBERTY FOR BEING CHARGED WITH MISDEMEANORS PURSUANT
TO CPL§ 530.60 MANDATE RAISING BAIL TO $230,000 ?
2. AND WHETHER THE ABOVE ISSUE IS DEEM MOOT ONCE NY COUNTY SUPREME
COURT MISTERIOUSLY DROPPED BAIL (THE $230,000) DOWN TO $155,000?
3. AND WHETHER IT WAS ABUSE OF DISCRETION FOR THE ABOVE ACTS IN QUESTION
1. AND 2. AND 3. RAISING THE $155,000 UPON PETITIONER'S BAIL REDUCTION
APPLICATION TO $175,000 UNDER THE NEW BAIL REFORM ACT & DID ALL CONSTITUTE
" "EXCESSIVE BAIL" , INCLUDING THE WHOPPING $5000 THE NY CO. CRIMINAL COURT
PASSED DOWN FOR SAID MISDEMEANORS ABOVE ?

\D<

LIST OF PARTIES
i-

■1

[ ] All parties appear in the caption of the case on the cover page.
All parities do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

NEW YORK COUNTY SUPREME COURT
APPELLATE COURT FIRST DEPT
NYS COURT OF APPEALS

RELATED CASES
SEE ATTACHED TABLE OF AUTHORITIES ATTACHE bj

~\

1,

TABLE OF CONTENTS
j

'

4

i

OPINIONS BELOW....
JURISDICTION

5^
h

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED .

rt ■

PnalJAiiW/WU'

STATEMENT OF THE CASE................

a,
u.

REASONS FOR GRANTING THE WRIT
CONCLUSION
1

INDEX TO APPENDICES
I
APPENDIX A }
l

APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

A

r-

\

1

6f-

APPENDIX A& EXHIBTTA
CERTIFICATE OF REGARD
I PETITIONER ROY TAYLOR PRO’SE HEREBY CERTIFY THAT I'VE SUBMITTED THE
FOLLOWING RECORD TO WRIT OF CERTIORARI COURT:
APPENDIXA THE SUP COURT, THE APPELLATE CT 1ST DEPT, NYS COURT OF APPEALS DECI­
SION
18 PG WRIT OF CERTIORARI & HABEAS CORPUS WRIT
ALL PRETRIAL OCCURRENCES DOCUMENT
SUP CT JUDGE FARBER CONST VIOLATION EXONERATION OF BAIL
BIAS JUDGE MICHELLE RODNEY (EX BRONX DA) FAILURES
JUDGE PAEK BAAIL REDUCTION & PRO'SE DENIAL FAILURES
SUPREME COURT HABEAS CORPUS WRIT & AFFIRMATION
MOTION TO STAY BAIL DECISION AMENDMENT & TO PROCEED PRO'SE PENDING APP REVIEW
NOTICE OF APPEAL TO THE SUPREME COURT & APPEAL
ADDEDUM MOTION TO AMEND HABEAS CORPUS
AMENDED MOTION TO RENEW REATGUE WRIT HABEAS CORPUS
MOTION TO RECONSIDER NEWLY DISCOVERED EVIDENC TO APPEAL TO 1ST DEPT FROM SUP
MOTION FOR STATUS OF CASE & ADDEDUM AMEDNDE MOTION TO RENEW REARGUE WRIT &
RENDER DECISION
MOTION TO RENDER DECISION ON REINSTATEMENT OF $75,000 BAIL
NY CO. DA OFFICE CORRESPONDENCES 10-18-19, extension of time requet 1-8-20
2-7-2020 NOTION LETTER ARGUE APPEAL IS MOOT, 12-28-2020
1ST DEPT APPELLANT'S RESPONSE TO RESPONDENT'S BRIEF IN OPPOSITION HAB CORPUS
MOTION TO RECONSIDER ADDRESSING APPEAL WITH FINDING OF FACTS & CONCLUSION
APPELLANT BRIEF TO NYS COURT OF APPEALS
MOTION FOR LEAVE TO APPEAL TO NYS COURT OF APPEALS
MOTION TO VACATE JUDGMENT TO ADDRESS CASE ON IT'S MERITS WITH CONCLUSION OF L>
& STATEMENT OF FACTS & DECISION ENBANC
CPL § 530.60 2 PAGES HIGHLIGHTED
INFORMATION ON NEW BAIL REFORM
PETITIONER TAYLOR'S SOURCE OF INCOME INMATE TRUST FUND ACCT TRANSACTIONS
NY CO. CRIMINAL COURT PART N 7-13-16 MINS JUDGE MENUIN/ADA KOEVARY QUOTING
I, PETITIONER TYLOR HAS A DOC HOLD, DENYING OPEN COURT APPEARANCE ON MY 180 fli
NYSTATE UNIFIED DOCKET SHEET SHOWING ALL CASES PENDING
ALL BAILS OF $50,000, $75,000, over SHOWING JUDGE WILEY ARBITRARILY RAISING
BAIL TO $300,000 & THE APPELLATE DIV 1ST DEPT REVESING BAIL TO $125,000
LETTER REETAffiNER ATTNY GARDNER TO HANDLE APPEAL
APPEAL REVERSAL FROM 1ST DEPT FROM JUDGES RICHTER,MAZZARELLI,KAHN,MOULTON
TURN PAPER OVER & FIND 6-28-18 CHARGES REDUCED TO MISDEMEANORS LAB REPORT
DOESN'T SUPPORT FELONY CHARGE HIGHLIGHTED
TURN PG ORIGINAL REMAND, ROCHE SURlTy CO. TERMS OF CONDITIONS
SUPREME COURT TAP B JUDGE 7-16-18 MINS EXONERATION OF BAIL FOR MISDEMEANORS
BAIL SHEET WHERE BAIL WAS RAISED TO $230,000 & ON BEHIND THIS PAGE TO $299,999!

HIN THE
SUPREME COURT OF THE UNITED STATES
• PETITION FOR WRIT OF CERTIORARI

1

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[X] reported at. SF.F. TABLE OF AUTHRITIES ATTACHED; nr,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

Ra to

SEE ATTACHED TABLE OF AUTHORITY; 0r,
fy] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X| For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
lx] reported at SEE ATTACHED TABLE OF AUTH&ITIES ; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the _
to the petition and is
appears at Appendix
[ ] reported at____
5 or,
[ ] has been designated for publication but is not yet reported; or,
[] is unpublished.
1.

A to

■S'

JURISDICTION

[ ] For cases fronji federal courts:

i

■

i

TM

j i

1

The date on which the United States Court of Appeals decided my case
was .—---------------------------[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: ------- :------- -order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including ______
in Application No;__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

|X] For cases from state courts:
The date on which the highest state court decided my case was—2-18-21—2_.
A copy of that decision appears at Appendix /V
o^njJs i

___

'€X*V J

[ ] A timely petition for rehearing was thereafter denied on the following date:
________
■________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including------Application No. ___A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

L.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

CPL§530.60

j

]

ill

THAT A PERSON OUT AT LIBERTY ON BAIL CAN NOT BE REVOKED/AND OR EXONERATED
IF HE COMMITS A MISDEMEANOR. IT HAS TO BE A "FELONY".
(SEE ATTACHED STATUTORY LAW ATTACHED

r'

EXHIBIT "A")

z
TABLE OF AUTHORITIES CITED
CASES:
KRIMSTOCK V. KELLY, 306F. 3D 40

pg

JOHNSON V. SPENCER, 950 F. 3D 680____ _______*...........

pg JS_

PEOPLE EXREL MANHATTAN R.CO. V. BARKER, 152 N.Y. 417

Pg J£

PEOPLEEX REL. MACCRACKEN V. MILLER, 291 N.Y. 55........

pg Jic
pg jS

WILLEY V. KIRKPATRICK, 801 F. 3D 51, 62
BURGOS V. HBRKEHS , 14 F. 3D 790 .

STATUTES AND RULES
28USCS §1260
ART§§ 70.10, 70.09
CPL§ 530.60 2(a)
THE US6A OF THE CONSTITUTION
EIGHTH AMENDMENT : EXCESSIVE BAIL & ABUSE OF DISCRETION
14TH AMENDMENT: DUE PROCESS

P8. • • ‘S'

%•

SUPREME COURT OF THE UNITED STATES

IN'THE STATE OF NEW YORK
RESPONDENTS
-AGAINST-

NO.
NYS NO.

ROy TAylOR,
PETITIONER
PRELIMINARY STATEMENT OF CASE
THIS IS A WRIT OF CERTIORARI APPEAL FROM A STATE HABEAS CORPUS FILED
IN THE NEW YORK COUNTY SUPREME COURT WHERE THE PETITIONER TAYLOR PRO'SE
CHALLENGED THE SUPREME COURT'S DECISION THAT EXONERATED HIS $125,000 BAIL
RAISING BAIL TO $230,000 BY SUPREME COURT JUDGE FARBER FOR BEING CHARGED
ON MISDEMEANOR OFFENSES WHILE AT LIBERTY. ONCE APPEALED SAID BAIL MISTERIOUSLY WAS DROPPED TO $155,000 AND THE NY COUNTY DA OFFICE NOW ARGUES FOR
THIS JUDGE SAID ISSUE ON APPEAL IS "MOOT" REQUESTING DISMISSAL, WHICH THE ‘
APPELLATE 1ST DEPT, AND THE NYS SUPREME COURT DENIED AND DISMISSED THIS
vACTION WITHOUT PRESENTING ANY'FINDINGS

OF FACT OR CONCLUSION OF LAW ON

THE MERITS AND WHEN I FILED MOTION REQUESTING THIS THESE COURTS FAILED TO
ADDRESS IT. FOR THESE REASONS PETITIONER APPEALS THIS DECISION TO THIS
WRIT OF CERTIORARI COURT COMPELLING.A DECISION ON THE MERITS OF THIS CASE,
ALSO FOR SAID MISDEMEANOR BAIL BEING EXTREMELY HIGH AT $5000 AND BETWEEN
THIS TIME A BAIL REDUCTION APPLICATION TO LOWER THE $155,000 BAIL MYSTERIOU­
SLY DROPPED UNDER THE "NEW BAIL REFORM" WAS AGAIN RAISED TO $175,000 By
THEN ANOTHER TAP B SUPREME\ COURT JUDGE PAEK ARBITRARILY WHICH WAS EXCESSIVE
BEING ALSO CHALLENGED HEREIN. PETITIONER IS SEEKING REVIEW 'AND REVERSAL AND
"REINSTATEMENT" OF THE ORIGINAL $125,000 BAIL OR THE ALTERNATIVE IT'S
ORIGINAL $75,000 BAIL ALL 3CASES WERE BEFORE SUPREME COURT JUDGE WILEY
PREVIOUSLY ARBITRARILY RAISED AS "REPRISAL" FOR COMPLAINTS FILED BY PETITIO­
NER AGAINST THIS JUDGE COLLEAGES (KONVISER & MENNIN SUP CT JUDGES IN NY CO.)
OVER NON OPEN COURT APPEARANCES FOR MORE THAN A YEAR I COMPLAINED ABOUT

%

AND THE DENIAL OF APPEARANCE ON MY 180. DATE(BY MENNIN) & RECUSAL REQUEST
(ON KONVISER DO TO PREVIOUS TRIAL MISCONDUCT) AS INDICATED ON ENCLOSED
PRETRIAL OCCURRENCES BY THESE JUDGES ATTACHED (SEE EXHIBIT "A”)

il,

REASONS FOR GRANTING THE PETITION
THE REASON FOR GRANTING THIS PETITION IS FOR THIS COURT TO COMPEL
THE STATE COURT TO ADDRESS ALL ISSUES ON IT'S MERITS JWHICH THEY REFUSE
TO DO WHICH THEY HAD A DUTY TO. RULE wlTH^ A ^INDTNG joF |FACT WITH CONCLUSION OF LAW IN THEIR DECISION EXPLAINING HOW THEY REACHED THEIR DECISION.
CPL§530.60 PLAINLY STATES THE SUPREME COURT CAN'T EXONERATE AND RAISE
nATT am » MT<;r»FMFANOR OFFENSE, YET THEY DID SO ILLEGALLY. THEN ONCE APPEAL

SAllsS^^?S5^5SB-^I55Sre*giSSgi^S&K 5sl6«^*
SUPREME COURT AR|ITRARiLYtAUNtKAin,u

ADDED) IN MISDEMEANOR COURT

SiSiS
IN COMPLAINT!1' (EMPHASIS ADDED)

k=„.,

Q.
QUESTION(S) PRESENTED
WHETHER NEW YORK STATE COURTS “ERRORED" NOT ADDRESSING THE MERITS OF:
1.WHETHER THE NEW YORK COUNTY SUPREME COURT ERRED EXONERATING BAIL
($125,000) WHILE AT LIBERTY FOR BEING CHARGED WITH MISDEMEANORS PURSUANT
TO CPL§ 530.60 MANDATE RAISING BAIL TO $230,000 ?
i
2. AND WHETHER THE ABOVE ISSUE IS DEEM MOOT ONCE NY COUNTY SUPREME
COURT MISTERIOUSLY DROPPED BAIL (THE $230,000) DOWN TO $155,000?
3. AND WHETHER IT WAS ABUSE OF DISCRETION FOR THE ABOVE ACTS IN QUESTION
1. AND 2. AND 3. RAISING THE $155,000 UPON PETITIONER’S BAIL REDUCTION
APPLICATION TO $175,000 UNDER THE NEW BAIL REFORM ACT & DID ALL CONSTITUTE
" “EXCESSIVE BAIL" , INCLUDING THE WHOPPING $5000 THE NY CO. CRIMINAL COURT
PASSED DOWN FOR SAID MISDEMEANORS ABOVE ?
ARGUMENT AND MEMORANDUM OF LAW
1. PETITIONER ARGUES THAT ONCE HE GOT ARRESTED 6-28-2018 FOR CPCS AND
TRAFFIC VIOLATIONS AND PARAPHENALIA, ORIGINALLY THE PEOPLE SOUGHT FELONY
& REMAND (SEE EX “A" ENCLOSED)
CHARGER; HOWEV ER THE JUDGE PRESIDING OVER THIS CASE DROPPED THE FELONY
FINDINGS REDUCING CHARGES TO MISDEMEANOR OFFENSES WHICH THE INITIAL REMAND
WERE DROPPED WHERE PETITIONER RECEIVED A RATHER HIGH $5000 BAIL ON THESE
CHARGES. (SEE EXHIBIT A" ATTACHED SUPPORTING PAPERS) THIS WAS “EXCESSIVE".
2. THIS ,AS EXPLAINED IN PRELIMINARY STATEMENT OF FACTS CAME WHILE OUT
AT LIBERTY (BAIL $125,000).
3. PETITIONER ARGUES THE N.Y. CO. SUPREME COURT WERE BARRED FROM EXONERA­
TING BAIL UNLESS I COMMITTED A FELONY BASED ON CPL§530.60 MANDATE, YET DID
IT ANYWAY. (SEE EX“A“ STATUTORY LAW CPL§530.60 ATTACHED) I ONLY HAD MISDE­
MEANOR CHARGES WHICH ONLY WARRANTED ANOTHER BAIL WHICH WAS TOO HIGH AT $5000*
ty. BY THIS, PETITIONER ARGUES THE COURT ABUSED THEIR DISCRETION BY
VIOLATING MY 8TH AMENDMENT RIGHTS TO “EXCESSIVE BAIL” AND ABUSE OF DISCRETION,
BY THIS AND BY THE 7-16-18 SUPREME COURT APPEARANCE BEFORE TAP B JUDGE FARBER -

iV
THAT COURT TOOK IT UPON THEIRSELF AND "EXONERATED" THE $125,000 BAIL I
HAD RAISING BAIL TO A "WHOPPING" $230,000 "UNLAWFULLY BASED ON THE STATUTE
& THE 8TH AMENDENT OF THE US & STATE CONSTITUTION WHICH CLEARLY STATES:
"EXCESSIVE BAIL SHALL NOT BE REQUIRED, NOR EXCESSIVE FINES IMPOSED, NOR
CRUEL AND UNUSUAL PUNISHMENTS INFLICTED"
5. THEN ONCE THE ABOVE WAS APPEALED AND THE LOWER COURT GOT WIND OF IT
THE NY COUNTY DA'S OFFICE ANSWERED FOR THE NYS SUPREME COURT IN LETTER MOION
AFTER THE LOWER COURTS
AND IN AN AFFIRMATIVE DEFENSE BEFORE THE 1ST DEPT,
"MOOT".
"MISTERIOUSLY LOWERED BAIL TO $155,000 THEN ARGUED THE CASE AS
6. HERE, THE SWPREMB COURT DID SOMETHING THEY WERE NOT ALLOWED TO DO AND
NOW THEyTURN AROUND AND NOW ARGUE THE "MOOTNESS CLAIM" ! (EMPHASIS ADDED)
PETITIONER LOSS HIS FAMILIES "HARDEARNED" MONEY RAISED ON BAIL FOR A MEASLY
"MISDEMEANOR OFFENSES BY THE COURT'S ACTIONS WHEN THEY WERE FORBIDDEN TO
ACTUALLY DO THIS "IN THE FIRST PLACE!" THIS SHOWS CLEARLY "ABUSE OF DISCRETION
BY THE NY CO. SUPREME COURT IN THIS ACTION.
"NEW BAIL REFORM" CAME INTO
7. AND FURTHER, IN BETWEEN THIS TIME THE
PLAY WHERE PETITIONER SUBMITTED A BAIL REDUCTION APPLICATION OF THE $155,000
BAIL BUT RECIEVED IN FARBER'S COURT WHO NOW NEWLY ASSIGNED SUPREME COURT
JUDGE KATHERINE l PAEK, THIS JUDGE RAISED THE $155,000 TO $175,000 WHICH ALSO
WAS ABUSE OF DISCRETION AND EXCESSIVE BAIL BY THIS.
8. MOREOVER, PAEK FAILED TO APPLY THE NEW CRITERIA UNDER THE NEW BAIL
REFORM WHICH HAS TO BE BASED ON WHAT I CAN AFFORD AND BE ALLOWED TO PAY 10%
TO THE COURT AND BASED IT ON NON HEARSAY EVIDENCE WHICH.THIS COURT IS ASKED
TO ORDER THE 2-«|-20 BAIL HEARING IN 100 CENTRE STREET COURT BEFORE JUDGE PAEK
ftHEN ATTNY NESTER ROSADO WAS RETAINED TO REPRESENT. ME, PETITIONER. THE COURT
WAS REQUIRED TO UNDER THE NEW BAIL REFORM SHOW WHETHER I'D MAKE COURT APPEAR, ANCES WHICH WHILE ON BAIL I NEVER MISSED A DATE AND FOR THOSE MISDEMEANORS
OF 6-28-18 ARREST BAIL WAS $5000 WHICH WAS EXTREMELY HIGH FOR THESE OFFENSES

\H<

AND THERE WERE NO HISTORY OF BAIL JUMPING OR ESCAPES SO THIS JUDGE
CLEARLY ABUSED HER DISCRETION IN RAISING BAIL IN THIS CASE, WHICH IT'S
BELIEVED THIS JUDGE IS OR WAS DISPLAYING "REPRISAL'' FOR THOSE COMPLAINTS
FILED AGAINST HER SUPREME COURT COLLEAGES ALSO, AS JUDGE WILEY AND FARBER
DID!" (SEE EXHIBIT "A" PRETRIAL OCCURRENCES SHEET DESCRIBED ATTACHED HEREIN)
9. ALL ACTS EXHIBITED AGAINST PETITIONER BY THESE JUDGES IN NEW YORK COUNTY
RESULTED BELIEVED ONCE WILEY'S ARBITRARY RAISING OF BAIL "FOR NO REASON BUT
FOR PRIOR COMPLAINTS (AGAINST KONVISER & MINNEN) AND THE APPEAL REVERSED THAT
EXCESSIVE BAIL, UPON RETURN WITH THESE MISDEMEANOR OFFENSES (THEY WANTED FELON$
THESE PEOPLE IS BELIEVED TO HAVE "GOTTEN A 2ND BITE OF THE APPLE" IN AGAIN
SHOWING REPRISAL BUT WHAT JUDGE FARBER DID (RAISING/EXONERATING $125K TO $230K
AND NOW PAEK RAISED THE (MISTERIOUS LOWERING OF$ $155,000 BAIL TO THE NOW
$173,000 WHICH UNDER THE NEW BAIL REFORM THIS SHOULD NEVER HAVE HAPPENED AND
WAS "CLEARLY" ABUSE OF, DISCRETION & EXCESSIVE BAIL BY THIS JUDGE ALSO. PAEK
ALSO FAILED TO PASS DOWN AFFORDING ME TO PAY 10% WHICH THE COURT IS NOW ALLOWED
TO DO, BUT DIDN'T HERE !" (EMPHASIS ADDED) WHAT'S THEIR EXCUSE ? THE RAISING OF
MY PETITIONER'S BAIL WAS "UNFOUNDED" AND ALL OTHER ACTS DESCRIBED WERE ALSO
^ WHICH ALL OF THIS WERE PRETRIAL MALICIOUS PROSECUTION AT IT'S BEST BY THESE
•

COURTS AND MOREOVER, ONCE APPEALED TO THE APPELLATE DIVISION 1ST DEPT AND TO
THE NYS COURT OF APPEALS, THESE COURT* FAILED TO EVEN. ADDRESS THE MERITS OF
WHAT I RAISED CLEARLY DESCRIBED IN THESE APPEALS. (SEE EXHIBIT "A" ALL APPEALS
FROM THE SUPREME COURT, TO THE APPELLATE COURT AND TO THE NYS COURT OF APPEALS
AND THE DECISIONS^FROM ALL OF THESE COURTS)
10. EVEN WHEN PETITIONER FILED MOTIONS PROSE IN OPPOSITION REQUESTING ALL
THESE COURTS TO ADDRESS MY ISSUES MERITS WITH

FINDINGS AND FACT AND CONCLUSION

OF LAW THESE COURT FAILED TO ADDRESS THEM. (SEE EXHIBIT "A ALL PLEADINGS)
BY THIS THE LOWER NYS COURTS FAILED IN THEIR DUTIES TO ADDRESS THE MERITS IN

IS,

THIS CASE WHICH I SOUGHT REVIEW AND THE COURT HEREIN TO COMPEL THEM TO
AND ALTERNATIVELY RULE TO REINSTATE THE ORIGINAL 75,000 BAIL ALL CASES WERE
UNDER AS IF IT NEVER OCCURRED OR ALTERNATIVELY REVERSE AND REINSTATE THE
$125,000 BAIL AS IF IT "NEVEROCCUREE" AND FURTHER SANCTION THESpCOURTS FOR
THEIR ABUSES TOWARDS ME AT ALL LEVELS MENTIONED HEREIN.
11. THESE COURTS UNDER THE NEW BAIL REFORM ARE ALSO REQUIRED TO SUBMIT
THEIR CERTIFICATE OF COMPLIANCE AS THE DAS IN COMPLYING TO THE NEW REFORM
YET HERE THEY'RE NOT COMPLYING WITH THE NEW.LAWS PASSED DOWN IN THIS CASE.
12. MANY COURTS HAVE RULED ON COURT REVIEW THE PRESIDING COURTS ARE
OBLIGATED TO RULE IN A CASE ON IT'S MERITS DETERMINING IF WITH FINDINGS OF
FACT AND WITH CONCLUSION OF LAW IN REACHING IT'S DECISION. SEE KRIMSTOCK V.
KELLY , 306 F. 3D AO; JOHNSON V. SPENCER, 950 F. 3D 680;

pfqpt

y

tty t?pt. .manh

r;

CO. BARKER, 152. N.Y. 417; PEOPLE EX REL. MACCRACKEN V.—MILLER» 291 N.Y.55,
COURTS HAVE FURTHER RULED THE SOLE ISSUES IN PROCEEDINGS WHEN TAKEN AND A
QUESTION OF VALUATION IS ALWAYS QUESTION OF LAW & FACT. COURT REPEATIVELY
DECLARED THE RULES OF UNANIMOUS AFFIRMANCE WHICH APPLIES TO SPECIAL PROCEEDING*
AS WELL AS ACTIONS TO FINAL ORDERS, AS WELL AS JUDGMENTS AND TO APPLIED
FINDINGS, AS WELL AS THOSE WRITTEN OUT IN FILL. PEOPLE Vi. MANHATTAN V. BARKER.
IS. THE STANDARDS OF REVIEW THIS COURT IS REQUIRED TO CONSTRUE PRO'SE
COMPLAINTS LIBERALLY AND TO CONSIDER THE "STRONGEST ARGUMENTS THE CASE
SUGGEST. SEE WILLEY V. KIRKPATRICK 801 F. 3D 51,62; BURGOS V. H(DRKINS, 14
F. 3D 790.
14. PETITIONER ARGUES "HERE, THE LOWER COURTS FAILED TO ADDRESS HIS ISSUES
IN THE QUESTIONS OF LAW DESCRIBED HEREIN AND NONFOF THE NY COUNTY SUPREME,
THE APPELLATE, N0X THE NYS COURT OF APPEALS EVER ONCE ENTERTAINED THESE
QUESTIONS OF LAW IN THE CASE. THEY SIMPLY DENIED AND DISMISSED THIS ACTION
WITHOUT ADDRESSING THE MERITS IN PLAIN DETAIL. BY THIS THIS BODY OF COURTS
ULTIMATELY FAILED TO PERFORM A DUTY ENJOINED UPON IT BY LAW WHICH IS ASKED
TO BE REVIEWED PURSUANT TO APPLICABLE NYCLS AND CPLR.

u*.

WHEREFORE; PETITIONER PRAYS BASED ON THE FOREGOING ARGUMENT SUBMITTED
THAT THIS COURT IS AUTHORIZED TO REVIEW AND CONSIDER AND DECIDES THIS CASE
AND IT IS RESPECTFULLY REQUESTED FOR THIS COURT TO GRANT THIS RELIEF SUCH

•

as order

Reversal and remand for the nys courts to address the merits of i

THIS CASE ON ALL QUESTIONS OF LAW PRESENTED AND THAT THIS COURT ORDER IN
THE ALTERNATIVE REINSTATEMENT OF THE $125,000 BAIL AS IF IT NEVER OCCURRED
OR ALTERNATIVELY REVERSE

& REINSTATE THE ORIGINAL $75,000 BAIL ALL 3 CASES

WERE ON BEFORE JUDGE WILEY ARBITRARILY

RAISED AN EXCESSIVE BAIL AND THIS

COURT DEEM THE NYS COURT "ABUSED IT'S DISCRETION WITH ALL THE EXCESSIVE
BAIL IN ALL INSTANCES AND REVERSE THESE FINDINGS IN IT|S ENTIRETIES AND FOR
SUCH FURTHER RELIEF AS JUST AND PROPER.

WfifeiuSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

ROY TAYLOR, PRO'SE PETITIONER
AMKC RIKERS 1818 HAZEN STREET, EAST ELMHURST, NY 11370
Date:

5-|fc-2021

£ L2Tb

it

A '"f

D r

jlJ)

'Yi-a-P
rr-i

t
i

MICHAEL G. VEAL
Notary Public, State of New York
No. 01VE6023177
Qualified in Queens County
o
Commission Expires April 19, 20

'1

